No. ______
In the

Supreme Court of the United States
__________________
VIVIAN L. RADER and STEVEN R. RADER,

Petitioners,
v.
CITIBANK, N.A., as Successor Trustee to U.S. Bank
National Association as Successor to Wachovia Bank
National Association as Trustee for the Certificate holders
of Mastr Alternative Loan Trust 2004-1 Mortgage Pass
through Certificates Series 2004-1, et al.,

Respondents.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Tenth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
David J.S. Madgett
Counsel of Record
Douglas E. Klein
William J. Barnes
MADGETT & KLEIN, PLLC
619 South Tenth Street
Minneapolis, MN 55404
(612) 470-6529
Dmadgett@madgettlaw.com
Counsel for Petitioners
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED FOR REVIEW
1. Is Colorado’s system of non-judicial foreclosure (Co.
Rev. Stat. §38-38-101 (2016) in conjunction with
Rule 120) unconstitutional under the Due Process
and Equal Protection Clauses of the Fourteenth
Amendment to the United States Constitution
because it provides no pre-taking means for a
homeowner to discover facts and/or present relevant
evidence to determine if the party foreclosing on the
property is the holder of the note?

ii
CORPORATE DISCLOSURE STATEMENT
Petitioners Vivian and Steven Rader are individual
persons and have no parent corporation, and no
publicly held company owns 10% or more of its stock.
LIST OF PARTIES
The Petitioners in this case are two individuals who
own real property within the State of Colorado. The
respondents in this case are Citibank, N.A. who
foreclosed on Petitioner’s home as Successor in interest
trustee to U.S. Bank National Association who in turn
claims to be a successor to Wachovia Bank N.A. who
claims to serve as trustee for the certificate holders of
Master Alternative Loan Trust 2004-1 and Mortgage
Pass though Certificates Series 2004-1.
LIST OF PROCEEDINGS IN OTHER COURTS
Rader, et. Al. v. Citibank, N.A., No. 1:14-cv-00784,
U.S. District Court for the District of Colorado,
Judgment Entered: October 15, 2014.
Rader et. Al. v. Citibank, N.A.; No. 1:14-cv-01472;
United States Court of Appeals for the Tenth Circuit,
Judgment Entered: October 13, 2015.
Rader et. Al v. Citibank, N.A.; No. 1:14-cv-02736,
U.S. District Court for the District of Colorado,
Judgment Entered: August 30, 2016.
Rader et. Al. v. Citibank, N.A.; No. 1:16-cv-01379,
United States Court of Appeals for the Tenth Circuit,
Judgment Entered: July 7, 2017.

iii
Rader et. Al. v. Citibank, N.A.; No. 1:14-cv-00784,
U.S. District Court for the District of Colorado,
Judgment Entered: May 4, 2018.
Rader et. Al. v. Citibank, N.A.; No. 1:18-cv-01208,
United States Court of Appeals for the Tenth Circuit,
Judgment Entered: March 18, 2019. Order Denying
Petition for Rehearing entered on April 15, 2019.

iv
TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
LIST OF PARTIES. . . . . . . . . . . . . . . . . . . . . . . . . . . ii
LIST OF PROCEEDINGS IN OTHER COURTS . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vii
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AMENDMENTS AND
STATUTORY PROVISIONS INVOLVED. . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
A. Factual Background . . . . . . . . . . . . . . . . . . . . 2
B. The Securitization Process Explained . . . . . . 3
C. Mortgage
Documentation and the
Securitization Process . . . . . . . . . . . . . . . . . . . 5
D. Fraudulent Assignments. . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE WRIT. . . . . . . . . 8
I. THE WRIT OF CERTIORARI SHOULD BE
GRANTED TO ENSURE THAT COLORADO
RULES OF CIVIL PROCEDURE, RULE 120
COMPORTS WITH PROCEDURAL DUE
PROCESS TO EN SURE THAT AN
ERRONEOUS TAKING OF ONE’S PROPERTY
DOES NOT OCCUR . . . . . . . . . . . . . . . . . . . . . . . 8

v
II. THERE IS NO RATIONAL BASIS FOR
COLORADO TO PREVENT HOMEOWNERS
FROM CONDUCTING DISCOVERY IN
FORECLOSURE CASES OR FOR TREATING
HOMEOWNER LITIGANTS DIFFERENTLY
FROM ANY OTHER CLASS OF LITIGANTS . 16
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
APPENDIX
Appendix A Order and Judgment in the United
States Court of Appeals for the Tenth
Circuit
(March 18, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Order Denying Plaintiff’s Motion to
Re-Open Case in the United States
District Court for the District of
Colorado
(May 4, 2018) . . . . . . . . . . . . . . . . App. 9
Appendix C Order and Judgment in the United
States Court of Appeals for the Tenth
Circuit
(October 13, 2015) . . . . . . . . . . . . App. 12
Appendix D Order Granting Defendants’ Motion to
Dismiss in the United States District
Court for the District of Colorado
(October 14, 2014) . . . . . . . . . . . . App. 17
Appendix E Final Judgment in the United States
District Court for the District of
Colorado
(October 15, 2014) . . . . . . . . . . . . App. 28

vi
Appendix F Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Tenth Circuit
(April 15, 2019) . . . . . . . . . . . . . . App. 30
Appendix G U.S. Const. Amend. XIV, Sec. 1 . App. 32
Appendix H Colorado Rev. Stat. § 38-38-101 . App. 33
Appendix I Colorado Rule 120 (with changes
tracked between 2016 and the 2018
amendment) . . . . . . . . . . . . . . . . App. 45
Appendix J Appendix to Rule 120 . . . . . . . . . App. 66

vii
TABLE OF AUTHORITIES
CASES
Boddie v. Connecticut,
401 U.S. 371 (1972). . . . . . . . . . . . . . . . . . . . . . . 17
Connecticut v. Doehr,
501 U.S. 1 (1991). . . . . . . . . . . . . . . . . . . . . . . . . 10
Department of Agriculture v. Moreno,
413 U.S. 528 (1973). . . . . . . . . . . . . . . . . . . . . . . 16
Douglas v. California,
372 U.S. 353 (1963). . . . . . . . . . . . . . . . . . . . . . . 16
Fuentes v. Shevin,
407 U.S. 67 (1972). . . . . . . . . . . . . . . . . . . . . 10, 13
Griffin v. Illinois,
351 U.S. 12 (1956). . . . . . . . . . . . . . . . . . . . . . . . 16
Haitian Refugee Center v. Smith,
676 F.2d 1023 (5th Cir. 1982). . . . . . . . . . . . . . . 11
Harper v. State Board of Elections,
383 U.S. 663 (1966). . . . . . . . . . . . . . . . . . . . . . . 17
Matthews v. Eldridge,
424 U.S. 319 (1976). . . . . . . . . . . . . . . . . . . . . . . 10
M.L.B. v. S.L.J,
519 U.S. 102 (1996). . . . . . . . . . . . . . . . . . . . . . . 17
Morrissey v. Brewer,
408 U.S. 471 (1972). . . . . . . . . . . . . . . . . . . . . . . 10
Pater v. City of Casper,
646 F.3d 1290 (10th Cir. 2011). . . . . . . . . . . . . . . 9

viii
Rader v. Citibank, N.A.,
616 F. App’x 383 (10th Cir. 2015) . . . . . . . . . . . . 3
United States v. James Daniel Good Real Property,
510 U.S. 43 (1993). . . . . . . . . . . . . . . . . . . . . . . . 10
Yvanova v. New Century Mortgage,
62 Cal. 4th 919, 365 P. 3d 845, 199 Cal. Rptr.3d
66 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
CONSTITUTION
U.S. Const. Amend XIV . . . . . . . . . . . . . . . . . . . . . 1, 9
STATUTES AND RULES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Co. Rev. Stat. § 38-38-101 (2016) . . . . . . . . . 1, 11, 12
Real Estate Settlement Procedures Act
(“RESPA”) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Truth In Lending Act (“TILA”) . . . . . . . . . . . . . . . . 13
Colo. R. Civ. P. 120. . . . . . . . . . . . . . . . . . . . . . passim
Colo. R. Civ. P. 120(c). . . . . . . . . . . . . . . . . . . . . . . . 12
Colo. R. Civ. P. 120(d) . . . . . . . . . . . . . . . . . . . . . . . 12
Fed. R. Civ. P. Rule 60(d)(3) . . . . . . . . . . . . . . . . . . . 3
MISCELLANEOUS
Levitin & Twomey, Mortgage Servicing, 28 Yale J.
On Reg. 1 (2011) . . . . . . . . . . . . . . . . . . . . . . . . . . 5

ix
Whitman, How Negotiability Has Fouled Up the
Secondary Mortgage Market, and What to Do
About It, 37 Pepp. L. Rev. 737 (2010) . . . . . . . . . 6

1
Vivian and Steven Rader (“Rader”) respectfully
petition for a writ of certiorari to review the decisions
of the United States Court of Appeals for the Tenth
Circuit (En Banc) affirming district court Orders
refusing to reopen a case with a judgment predicated
on fraud resulting in the foreclosure of the Rader
family home.
OPINIONS BELOW
The opinion of the court of appeals, dated March 18,
2019 and docketed as Case No. 18-1208 [Pet. App. A].
The district court’s orders are unreported, and
unpublished [Pet. App. B, D, E].
JURISDICTION
The decision of the Tenth Circuit Court of Appeals
was entered on March 18, 2019. [Pet. App. A]. A
petition for rehearing en banc was denied on April 15,
2019. [Pet. App. F]. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AMENDMENTS AND
STATUTORY PROVISIONS INVOLVED
Relevant parts of Amendment XIV of the U.S.
Constitution, Colorado Statute § 38-38-101(2016),
Colorado Rule 120 (with changes tracked between 2016
and the 2018 Amendment), and the Appendix to Rule
120 handed to hearing defendants are reprinted in the
accompanying Appendix. [Pet. App. G-J].

2
STATEMENT OF THE CASE
This Petition presents an issue of Constitutional
interpretation of great importance to current and
prospective homeowners, their creditors, and the
national and international financial markets in which
mortgages, deeds of trust, and promissory notes are
freely securitized and traded.
A. Factual Background
In 2003, Petitioner Steven Rader borrowed $630,000
from Greenpoint Mortgage Funding, Inc. The
promissory note was secured by a recorded deed of
trust on the real property that Steven owned with his
wife, Vivian Rader, in Pagosa Springs, Colorado. In
2008, the petitioners stopped making payments
because of alleged billing errors, causing the loan to go
into default. [Pet. App. D].
U.S. Bank, which held the note at that time,
initiated foreclosure actions in Colorado State Court in
2012. U.S. Bank later moved to substitute Citibank as
the petitioner in the foreclosure action, stating that it
had transferred its interest in the note to Citibank. The
state court granted this motion at the foreclosure
hearing and ordered the sale of the Rader’s property. Id.
Prior to the foreclosure sale, the petitioners sued
Citibank in federal court seeking declaratory and
injunctive relief to quiet title and to prevent
foreclosure. They contended that Citibank was not
entitled to enforce the note because U.S. Bank had not
lawfully transferred the note to Citibank – a fact
Citibank later admitted was true. Id. In granting
Citibank’s motion to dismiss, the district court held

3
that Citibank was the possessor and holder of the
promissory note because the note was endorsed in
blank. [Pet. App. D]. Thus, the court reasoned,
Citibank had standing to enforce the note and to
pursue foreclosure. The Tenth Circuit affirmed the
District Court’s ruling in Rader v. Citibank, N.A., 616
F. App’x 383, 384 (10 th Cir. 2015).
In February 2018, the petitioners filed a motion
under Fed. R. Civ. P. Rule 60(d)(3) to reopen the
lawsuit and to vacate the judgment per their argument
that Citibank perpetrated a fraud on the court:
Citibank stated under oath that it was the holder of the
note but later admitted was not true. Still, the motion
was denied and the Tenth Circuit affirmed the ruling.
B. The Securitization Process Explained
Foreclosure laws throughout the United States
build off of real property, contract, and commercial
laws and vary from state to state. Mortgage debt,
however, is securitized and traded on national (and, in
some cases, international) exchanges and other
markets.
Generally, securitization is the process by which
illiquid financial assets are transformed into tradable
commodities. It is one of the most significant
innovations of the financial world. Having originated in
1970 in mortgage markets in the United States,
securitization has already converted over $90 trillion
worth of non-tradable assets into marketable securities.
As a powerful tool of liquidity and risk management,
securitization has had a tremendous impact on the
welfare of the world economy. In mortgage markets in

4
many countries, securitization provides a cheaper
source of financing and thus promotes the demand for
housing. In the banking sector, securitization is widely
used for allocating capital more efficiently, transforming
risk into a tradable security, and reducing the overall
cost of capital.
Securitization has enabled emerging markets,
including developing nations, to raise their sovereign
ratings ceilings and thereby tap international capital
markets for lower-rate financing. Securitization also
involves debts of smaller amounts, such as consumer
debt, which, individually, generate relatively little
income (in comparison to the amount of income
typically generated by institutional investors), but
which can be grouped together to make up a more
valuable pool.
Therefore, one of the main purposes of
securitization is to create a marketable asset by
combining several assets that, individually, are not as
readily bought or sold; in other words, it makes a
market for such assets. Assets that can be securitized
include:
• Residential mortgage loans; this category
includes the infamous “subprime mortgages,”
which are home loans issued to individuals with
a low credit rating
• Commercial mortgage loans
• Bank loans to businesses
• Commercial debt
• Student loans
• Credit-card debt
• Automobile loans

5
While securitization brings with it certain financial
benefits, the process creates potential pitfalls with
respect to due process, which must be considered by
courts tasked with safeguarding the integrity of the
truth-finding process. Chief among these pitfalls are
the systematic problems with the foreclosure process,
illustrating the need for meaningful judicial review.
C. Mortgage
Documentation
Securitization Process

and

the

Traditionally, when a borrower took out a mortgage,
a local bank lent the borrower the money and then
retained the original note and mortgage. Levitin &
Twomey, Mortgage Servicing, 28 Yale J. On Reg. 1, 11
(2011). The borrower then submitted monthly payments
to that bank. Id. In the age of mortgage securitization,
however, the process became much more complicated.
After a lender originates the mortgage, it usually sells
the loan to another large institution. Subsequent
holders of the note might deal directly with the
borrower, but more often they hire servicing companies
to collect on the notes while individual mortgages are
bundled into trusts and packaged into residential
mortgage-backed securities. See Id. at 13-14.
During the assignment and re-assignment of
mortgages and deeds of trust, banks often lose track of
who actually holds the mortgage. It is for this reason
that due process standards must be scrupulously
observed and respected in all judicial forums.
Two documents are critical to a residential lending
relationship, and therefore to foreclosure on a
defaulting borrower’s loan: the note and the mortgage

6
(or deed of trust). It is well settled law that the
mortgage or deed of trust must follow the note, even
under Colorado law. Despite this basic requirement,
however, “experience during the past several years has
shown that, probably in countless cases, promissory
notes were never delivered to secondary market
investors or securitizers, and, in many cases, cannot
presently be located at all.” See, Whitman, How
Negotiability Has Fouled Up the Secondary Mortgage
Market, and What to Do About It, 37 Pepp. L. Rev. 737,
758 (2010). This is especially concerning since the
Uniform Commercial Code is clear that the borrower’s
payment to a person not entitled to enforce the
instrument does not satisfy the obligation — i.e., the
borrower who pays the wrong party may still face
foreclosure. Similarly, purchasers at a foreclosure sale
need to know that the sale is conveying valid title to
the real property. What further exacerbates matters is
the ongoing systemic problem of fraudulent
assignments, as addressed hereinbelow.
D. Fraudulent Assignments
Each time a mortgage changes hands in the
securitization process, the bank must appoint an
individual to execute an assignment of the mortgage.
These assignments must be assigned by a corporate
officer with proper authority and notarized. However,
these procedural niceties were ignored as the
assignment documents were discovered to be riddled
with fraud, as discovered by various Attorneys General.
For example, the Florida Attorney General, during its
2010 and 2011 investigation, discovered that banks and
mortgage servicing companies routinely employ

7
individuals who have no personal knowledge
concerning the documents they were signing to execute
thousands of mortgage assignments each day. Evidence
discovered through these investigations shows
“robosigners” like “Linda Green” whose “signature”
appears on hundreds of thousands of mortgage
documents, which list her as an officer of dozens of
different banks and mortgage companies. See Office of
the Attorney General of Florida, Economics Crimes
Div., Unfair, Deceptive and Unconscionable Acts in
Foreclosure Cases (App. 292). The report contains
examples of five dramatically different signatures of
“Linda Green” suggesting at least five people were
signing documents under her name. Id. It also contains
examples of forged signatures, stamped signatures,
fraudulent notarizations, assignments dated
“9/9/9999,” documents with blank lines that have been
witnessed and notarized, and assignments executed
after the filing of a lis pendens. The distorted evidence
is not only alarming but becomes an existential threat
to the judicial process when the vast majority of
foreclosures occur by default, whereby courts ignore
these systematic issues in favor of quickly and
efficiently clearing the docket, while paying scant, if
any, attention to careful evaluation of the merits of
each case. Colorado has exacerbated these problems by
establishing procedural hurdles to undermine the
ability of Defendants’ ability to raise these concerns.
Such real world examples provide abundant
evidence that clearly demonstrates how essential
discovery is to due process and why due process in the
foreclosure context cannot be said to exist without it.
The pervasive fraud and disarray vividly illustrates the

8
need for rigorous court procedures to ensure that
judicial decisions are not contaminated by the
systematic problems infecting the mortgage-financing
and foreclosure processes, as well as to ensure the
stability of the national and international markets in
which the securities are traded are not infected by
these highlighted problems.
REASONS FOR GRANTING THE WRIT
I. THE WRIT OF CERTIORARI SHOULD BE
GRANTED TO ENSURE THAT COLORADO
RULES OF CIVIL PROCEDURE, RULE 120
COMPORTS WITH PROCEDURAL DUE
PROCESS TO ENSURE THAT AN
ERRONEOUS TAKING OF ONE’S
PROPERTY DOES NOT OCCUR
In Colorado, Rule 120 provides the procedural
mechanism to foreclose on a home and to eventually
evict the homeowner, all without discovery. [Pet. App.
I]. As such, the methodology and procedural posture of
foreclosure proceedings instituted pursuant to Rule 120
values efficiency over substantive fairness. Since
discovery is not permitted in a Rule 120 hearing,
borrowers who find themselves in this proceeding are
deprived of meaningful evidentiary hearings to
determine whether the foreclosure proceedings pass
muster and thus comport with due process. If the
homeowner does not file a formal opposition to a
Motion for Order Authorizing Sale prior to the
“hearing” date set forth in the Rule 120 Notice, the
home may be taken without any further effort other
than the Clerk issuing an Order Authorizing Sale.

9
If the homeowner timely files an opposition to the
Rule 120 Motion and requests a hearing, a “probable
cause” hearing is held without the availability of any
discovery and with the presumption that the
foreclosing party has the legal ability to institute the
foreclosure (has “standing”). The borrower then has to
attempt to challenge standing, and challenge whether
the foreclosing party is the “PETE” (person entitled to
enforce [the note]) without any discovery.1 The facts
here highlight the devastating consequences of such a
procedure, where it was not discovered until years after
the initiation of the foreclosure, and in fact at the
eviction stage, that Respondent Citibank never had an
enforceable interest in the Petitioner’s Note or Deed of
Trust as testified to under oath by Citibank’s
designated representative.
The Fourteenth Amendment’s due process clause
provides that no State may “deprive any person of life,
liberty, or property, without due process of law.” U.S.
Const. Amend XIV, § 1. “Under the Due Process
Clause’s requirements, procedural due process ensures
the state will not deprive a party of property without
engaging fair procedures to reach a decision, while
substantive due process ensures the state will not
deprive a party of property for an arbitrary reason.”
Pater v. City of Casper, 646 F.3d 1290, 1293 (10th Cir.
2011) (internal quotation marks omitted). This Court
has been a steadfast guardian of due process rights
when what is at stake is a person’s right “to maintain
control over [his] home” because loss of one’s home is
1

The phrase “person entitled to enforce” is very commonly used in
foreclosure litigation.

10
such a great deprivation. United States v. James Daniel
Good Real Property, 510 U.S. 43, 5354 (1993). The core
demand of procedural due process is that an individual
facing deprivation of a protected [property] interest is
entitled to fundamental fairness. This, unfortunately,
is not the case for homeowners in Colorado.
The U.S. Supreme Court has consistently held that
some form of hearing is required before an individual
is finally deprived of a property interest by
governmental action such that the “opportunity to be
heard at a meaningful time and in a meaningful
manner” is indispensable. Matthews v. Eldridge, 424
U.S. 319, 333 (1976). Indeed, due process requires
procedures designed to “minimize substantively unfair
or mistaken deprivations of property, a danger that is
especially great when the State seizes goods simply
upon the application of and for the benefit of a private
party.” Fuentes v. Shevin, 407 U.S. 67, 81 (1972).
Such expedited procedures would be disturbing
under any circumstances. More importantly, however,
the due process implications of these diminished
procedures must be assessed in the particular context
in which they are being applied. See, Morrissey v.
Brewer, 408 U.S. 471, 481 (1972) (“[D]ue process is
flexible and calls for such procedural protections as the
particular situation demands.”)
Resolving a foreclosure case requires more than
merely “determining the existence of a debt or
delinquent payment.” Connecticut v. Doehr, 501 U.S. 1,
14 (1991). Technical and potentially complex issues
arising from mortgage securitization often makes it
difficult to determine the threshold question of whether

11
a plaintiff has standing to prosecute a foreclosure case.
For example, in situations like the present case, in
which an affidavit or declaration purporting to
document conveyance of a note is undercut by
deposition testimony, courts must make credibility
determinations or resolve conflicting factual
allegations. Similarly, in many cases, homeowners
point to evidence that the documents underlying a
foreclosure are fraudulent, or that the signature
purporting to verify the allegations in a complaint is
faulty. This will require the court to examine the
ongoing relationship between homeowner, lender, and
servicer. The due process requirements need to take
into account the procedural deficiencies of these postforeclosure proceedings, such as the Rule 120
proceeding.
In analyzing the due process implications of
accelerated and expedited trial proceedings, such as the
Rule 120 proceedings, the closely analogous Fifth
Circuit decision in Haitian Refugee Center v. Smith,
676 F.2d 1023 (5th Cir. 1982) is instructive wherein the
court tackled high case volume leading to an emphasis
on speed over reliability. Like the INS policies
invalidated in Haitian Refugee Center, the massive
Rule 120 hearing docket arising from foreclosures
achieves its goal of radically increasing its case
disposition rate by sharply limiting the homeowner’s
(borrower’s) defenses, all at the expense of the citizen’s
exercise of his constitutional due process rights.
The Colorado foreclosure statute (Colorado Statute
§ 38-38-101(2016)) in conjunction with Colorado Rule
of Civil Procedure 120, as currently constituted,

12
permits a summary foreclosure process depriving
homeowners of due process because discovery is not
permitted and because a homeowner has no reasonable
alternate means of discovering who is the true holder
of their mortgage note.
Pursuant to Colorado Statute § 38-38-101, an
alleged creditor only needs copies of a deed of trust and
promissory note, and an unsworn Statement of
Qualified Holder from the alleged creditor or the
attorney, stating that the creditor was the real party in
interest, or submission of a purported original note,
and the court will, by statute, conclusively establish
standing, holder, holder in due course, and therefore
the real party in interest. The homeowner is allowed no
discovery which, given the complexity of the mortgage
securitization process, totally eliminates homeowners’
ability to dispute a creditor’s entitlement to foreclose.
Colo. R. Civ. P. 120(c). An eviction typically follows as
a proceeding to further enforce the Rule 120 Order and
the aggrieved homeowners are evicted from their
homes, before they can pursue a lawsuit in a court of
competent jurisdiction. Cf., Colo. R. Civ. P. 120(d).
While it is true that the homeowners are permitted
to raise a standing defense, this represents at best a
pyric victory for a homeowner because, without
discovery, the homeowners are effectively prevented
from asserting any such defense: establishing basis is
impossible given the totally opaque securitization
process. There is rarely any transparency as to what
entity holds a mortgage or promissory note at any point

13
in time.2 The complexity in determining whether the
entity enforcing the security interest is a valid holder
(i.e., of both the promissory note and the mortgage
security interest) is highlighted by the present case,
wherein it was not determined that Plaintiff was not
the holder of the promissory note at the time of
foreclosure, but rather years after litigation in this
matter commenced. In fact, the fraudulent nature of
the affidavit submitted to prove standing to foreclose
would never have been discovered were it not for the
honesty and admission of the Respondents.
In Colorado the exclusive remedy (and exclusive
means for obtaining any discovery) is to file a posttaking collateral action, however, this schema is in
direct conflict the Supreme Court’s holding in Fuentes
v. Shevin, 407 U.S. 67 (1972), that statutes allowing
recovery provisions after a temporary, non-final
deprivation of non-essential personal property, were
nonetheless “deprivations” in terms of the 14th
Amendment, and that before a state takes a person’s
property, a fair hearing must be held.
The facts here highlight the unconstitutional
infirmities of Colorado Rule 120. In 2012, Citibank filed
a summary foreclosure proceeding in Archuleta
County, Colorado. Standing was conclusively

2

At this time, no states require the public recording of transfers of
promissory notes secured by real property, and the two federal
statutes that require disclosure of information about ownership of
mortgage loans to consumers are the Real Estate Settlement
Procedures Act (“RESPA”) and the Truth in Lending Act (“TILA”),
which provide no more information than is available in the
affidavit provided under the Colorado Rules.

14
established based on an affidavit that Respondent
Citibank was the holder. After a Rule 120 hearing, the
court granted Citibank’s request and a sale date was
set. Although the hearing was technically contested, no
discovery was permitted. Therefore, the petitioner
homeowners had no reasonable basis (and no means for
discovering a reasonable basis after diligent inquiry) to
oppose Citibank’s affirmation it was the holder of the
note.
However, in a deposition in October 2017, the first
chance Petitioners were permitted discovery,
questioning by counsel led to Citibank’s admission it
was not the holder of the note at the time of the Rule
120 hearing and that Citibank’s statement supporting
the foreclosure was false. Unfortunately, this fraud was
not uncovered (and not admitted to) until this case was
on appeal in the 10th Circuit. Despite the fact that it is
not disputed that the Citibank did not have standing to
enforce the note at the time of the original foreclosure,
the bank has been allowed to continue its argument
that the judgment of the foreclosure court should
stand. Due process requires Colorado to address the
systematic procedural deficiencies of foreclosure
proceedings, which presently allow for non-holders
without standing to litigate to foreclose on a home
based on an unsworn form.
The unconstitutional amendment and application of
Colorado’s foreclosure law has resulted in such matters
being handled in a manner that routinely denies
Colorado homeowners’ due process rights. Foreclosure
and eviction proceedings conducted pursuant to a
foreclosure statute that eliminates defenses and

15
deprives homeowners of their property without a fair
and meaningful hearing does not fulfill the
requirements of due process and fundamental fairness.
These proceedings are reminiscent of Star Chamber
proceedings that do nothing to achieve justice but
represent an obnoxious assault on the quality of justice
and fundamental fairness without examining the
underlying merits of these cases.
In the present action, a party with absolutely no
interest in a home promptly foreclosed over the
objections of the homeowners and, to date, has been
able to proceed with impunity. This case is a perfect
example of the very real effects of the shortcomings of
foreclosure procedure in Colorado and provides an
exceptional foundation for the court to address the
wider national issue while continuing its record of
protecting the right to due process under the law.3

3

Consider, the California Supreme Court decision in Yvanova v.
New Century Mortgage, 62 Cal. 4th 919, 926, 365 P. 3d 845, 199
Cal. Rptr.3d 66 (2016) recognizing the precise and inevitable
borrower’s nightmare and criticized banks for acting like “bounty
hunters” in recognizing that for the eight years prior to the ruling
in Yvanova, the majority of the judges in California took it upon
themselves to determine that if a borrower owed money to
someone, anyone could foreclose. Such a contention would lead to
the result that anyone, even a stranger to the debt, could declare
a default and order a trustee’s sale, and the borrower would be left
with no recourse because he owed the debt to someone, though not
to the foreclosing entity.

16
II. THERE IS NO RATIONAL BASIS FOR
COLORADO TO PREVENT HOMEOWNERS
FROM CONDUCTING DISCOVERY IN
FORECLOSURE CASES OR FOR TREATING
HOMEOWNER LITIGANTS DIFFERENTLY
FROM ANY OTHER CLASS OF LITIGANTS
Rule 120 violates the Equal Protection Clause of the
14th Amendment to the Constitution because persons
alleged to have past-due loans secured by real property
are treated differently than all other classes of
litigants. Specifically, in enacting and implementing
Rule 120, the state of Colorado interferes with any
person’s ability to defend themselves upon a mere
allegation that the person is behind on any loan
secured by real property. While the purpose of the Rule
120 proceeding may be legitimate — namely, efficiently
foreclosing on borrowers who cannot afford their homes
— Rule 120 may similarly be treated as a form of bias
and prejudice against litigants who are merely alleged
to be unable to afford owning property. The Supreme
Court has invalidated such laws using a rational basis
“with a bite” standard, and such treatment may even
be subject to enhanced scrutiny under the Equal
Protection Clause of the 14th Amendment.
The Supreme Court has an established record of
invalidating laws that classify persons into arbitrary
groups of litigants, depriving them of various rights
solely on the basis of economic status. Griffin v.
Illinois, 351 U.S. 12 (1956); Douglas v. California, 372
U.S. 353 (1963); See also, Department of Agriculture v.
Moreno, 413 U.S. 528 (1973)(Attacking arbitrary
government classifications and invalidating portions of

17
the Food Stamp Act, which prohibited people who live
in households
with unrelated individuals from
obtaining food stamps); Harper v. State Board of
Elections, 383 U.S. 663 (1966)(Invalidating poll taxes);
Boddie v. Connecticut, 401 U.S. 371 (1972)(invalidating
record preparation fees for a parent seeking judicial
review of a decision to terminate her parental rights);
M.L.B. v. S.L.J, 519 U.S. 102 (1996).
Here the issue is even more concerning. The mere
allegation made in a court document that a person is
not current on their loan is sufficient to remove the
Defendant’s rights in Colorado’s judicial process. There
is simply no rational basis to abrogate the procedural
discovery rights of litigants merely because they are
alleged to be behind in a loan secured by real property.
It is beyond dispute that Rule 120 has one purpose:
to swiftly foreclose and evict anyone who is alleged to
no longer be able to afford to live in their property. Per
such defendants’ alleged economic condition, Colorado
state courts immediately treat these “120 Track”
defendants differently, not only undermining their
right to defend themselves but also destroying public
confidence in the integrity of the judicial system. This
all but assures foreclosure and further perpetuates
prejudice against those homeowners who are alleged to
lack the financial means at the moment in time to
afford a share of the American dream of home
ownership.
To refuse to recognize the Equal Protection
violations by the State of Colorado not only undermines
public confidence in the judicial system but also creates

18
further instability in the financial national and
international markets.
Therefore, on the grounds set forth herein, Colorado
Rule 120 must be invalidated under the Equal
Protection Clause of the 14th Amendment.
CONCLUSION
For the reasons addressed above, the Petitioners
request that the Court grant the petition for a Writ of
Certiorari.
Respectfully Submitted,
David J.S. Madgett
Counsel of Record
Douglas E. Klein
William J. Barnes
MADGETT & KLEIN, PLLC
619 South Tenth Street
Minneapolis, MN 55404
(612) 470-6529
Dmadgett@madgettlaw.com
Counsel for Petitioners

